CERTIFICATE OF COMPLIANCE
Case No.
Caption: Isaacson/Weaver v. Fresno County, et al/
As required by Supreme Court Rule 33.l(h),
I certify that the document contains 7,929 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 21, 2019.

Samantha Collins

Record Press, Inc.

Sworn to before me on
August 21, 2019
RAMIRO A. HONEYWELL
Notary Public, Sate of New York
No. OlH 6118731

